No. 19-741
IN THE

Supreme Court of the United States
_________
ESTATE OF ESTHER KLIEMAN, BY AND THROUGH
ITS ADMINISTRATOR, AARON KESNER, et al.
Petitioners,
v.
PALESTINIAN AUTHORITY, AKA PALESTINIAN
INTERIM SELF-GOVERNMENT AUTHORITY AND
PALESTINIAN LIBERATION ORGANIZATION,
ALSO KNOWN AS PLO,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT
_________
SUPPLEMENTAL BRIEF OF RESPONDENTS
_________
GASSAN A. BALOUL, Counsel of Record
MITCHELL R. BERGER
SQUIRE PATTON BOGGS (US) LLP
2550 M Street, NW
Washington, D.C. 20037
(202) 457-6000
gassan.baloul@squirepb.com
April 22, 2020

Counsel for Respondents

1
SUPPLEMENTAL BRIEF OF RESPONDENTS
Petitioners’ second supplemental brief provides
nothing new for this Court’s consideration but instead
underscores why arguments concerning the PSJVTA
are better developed in Petitioners’ newly-filed cases,
which are tailor-made for this purpose.
The news articles discussed by Petitioners are
immaterial to jurisdiction under the PSJVTA. The
first article, published on March 29, 2020—five days
before Petitioners’ Reply Brief—states that public
salary payments for March would be disbursed on a
staggered schedule to avoid crowding at banks.1 The
article also warns that, due to the coronavirus crisis,
the Palestinian Authority may be unable to continue
those payments in April. The second article says
nothing about payments or finances but only that
“[t]he issue of the prisoners will remain our first
priority.” See Second Pet. Supp. Br. at 3-4.
Both articles are irrelevant to this case. Neither
discusses payments made after April 18, 2020. And
neither states whether payments were made to
prisoners convicted for harming an American national
in a terrorist attack, or to the families of those killed
when committing terrorist attacks on American
nationals. Both requirements must be met before
payments can be relevant under the PSJVTA. See id.
4a-5a.
More importantly, the D.C. Circuit last week held
that “the mere prospect” that the Palestinian
K.T. & M.N, Shtayyeh announces emergency budget amid
shrinking government revenues, Palestinian News & Information
Agency
(Mar.
29,
2020),
at:
http://english.wafa.ps/
page.aspx?id=0fYv8Fa115572318543a0fYv8F.
The article
clearly refers to a plan to pay March salaries over the next week
rather than those for April, as implied by Petitioners. Id.
1

2
government “might … in the future” make payments
falling within the ambit of the PSJVTA “does not
create personal jurisdiction now,” and therefore
rejected the plaintiffs’ “request that this court remand
the case to the district court to address the
implications of this new statute in the first instance.”
Shatsky v. Palestine Liberation Organization, No. 177168, 2020 U.S. App. LEXIS 11734, *42 (D.C. Cir. Apr.
14, 2020). In Shatsky, the district court had granted
summary judgment for Respondents on the merits,
but the court of appeals vacated the judgment and
directed dismissal for lack of personal jurisdiction.
The court of appeals concluded that a remand for
factual development was unwarranted even though
“after April 18, 2020, the Palestinian Defendants
might make the type of payments covered by the
Justice for Victims Act [PSJVTA] and, in so doing,
trigger retroactive consent to personal jurisdiction.”
Id. at *41-42. The court concluded that the better
course would be for the plaintiffs “to refile if new facts
establish personal jurisdiction.” Id. at *43.
In Shatsky, the D.C. Circuit joined the Second
Circuit to hold that new legislation that requires
prospective evidence of jurisdiction should be
addressed in new cases. Just as the Second Circuit
refused to re-open an old case under the AntiTerrorism Clarification Act of 2018, the D.C. Circuit
directed dismissal rather than entertain speculation
that there might be jurisdiction at some point in the
future under the PSJVTA. See Resp. Br. Opp. 22-23.
As the D.C. Circuit’s Shatsky decision shows, the
PSJVTA does not provide a reason to issue a GVR
here. The possibility that future facts might create a
statute-based argument for jurisdiction—subject to
Respondents’ constitutional counter-arguments—
does not justify a remand to consider future
developments under a new statute, when plaintiffs

3
have the option of pursuing those same arguments in
a re-filed case. See Shatsky, 2020 U.S. App. LEXIS
11734, at *42 (citing Timbisha Shoshone Tribe v.
Salazar, 678 F.3d 935, 937-39 (D.C. Cir. 2012)); see
also Resp. Br. Opp. at 21 (citing Texas v. United States,
523 U.S. 296, 300 (1998) (“A claim is not ripe for
adjudication if it rests upon ‘contingent future events
that may not occur as anticipated, or indeed may not
occur at all.’”)).
CONCLUSION
For all of the foregoing reasons, the Court should
deny the Petition.
Respectfully submitted,
GASSAN A. BALOUL
Counsel of Record
MITCHELL R. BERGER
SQUIRE PATTON BOGGS (US) LLP
2550 M Street, NW
Washington, D.C. 20037
(202) 457-6000
gassan.baloul@squirepb.com
Counsel for Respondent
April 22, 2020

